Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) BDB-3141
87233

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

AFFIDAVIT DF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 25th day of May 2021 deponent served 3 copies of the within

BRIEF IN DPPDSITIDN
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Gene Clayton Schaerr
Schaerr I Jaffe
1717 KStreet NW. Suite SOD
Washington. DC 20008

Attorneys for Petitioner

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on May 25. 2021, pursuant to Supreme Court Rule 2S.5(c). All parties required to be served, have been served.

4'k~t{)~
.
Howard Daniels
Sworn to me this

May 25. 2021
Jasmimi Williams
Public. State New
DIWl6387848
llualified in llueens
Expires September 16. 2023

Notary Public

Case Name: Gloucester County School Board. Petitioner v.
Gavin Grimm
Docket/Case No. 20-1183

